Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




   Medicare Payments for DRG 475

 Respiratory System Diagnosis With
         Ventilator Support




                   JUNE GIBBS BROWN
                    Inspector General

                     DECEMBER 1998
                      OEI-03-98-00560
                          OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Philadelphia office prepared this report under the direction of Robert A. Vito, Regional
Inspector General, and Linda M. Ragone, Deputy Regional Inspector General. Principal OEI
staff included:

REGION                                                   HEADQUARTERS

David Graf, Project Leader	                              Tricia Davis, Program Specialist
                                                         Mark Krushat, Research and Special Projects




      To obtain copies of this report, please call the Philadelphia Regional Office at (800) 531-9562.
          Reports are also available on the World Wide Web at our home page address:

                                   http://www.dhhs.gov/progorg/oei
                     EXECUTIVE SUMMARY

PURPOSE

To identify hospitals with atypically high billing patterns for patients with a respiratory system
diagnosis and ventilator support (DRG 475).

BACKGROUND

Under Medicare’s prospective payment system, a hospital’s payment amount is determined by
taking a hospital’s individual base payment rate and multiplying it by the weight of the diagnosis
related group (DRG) assigned to the patient stay. A DRG’s weight is determined by the intensity
of resources, on average, that are needed to treat that kind of case. The higher the relative weight,
the greater the reimbursement.

Medicare reimbursed hospitals nearly $2 billion for DRG 475 in 1996. The hospital stays of
patients whose principal diagnosis relates to diseases and disorders of the respiratory system, and
who receive continuous mechanical ventilation support, are coded as DRG 475. This DRG
typically has a higher Medicare reimbursement than most other DRGs.

The Health Care Financing Administration (HCFA) contracts with two Clinical Data Abstraction
Centers to collect clinical data from hospital medical records. The Abstraction Centers are
responsible for validating a random sample of claims from all Medicare inpatient hospital
discharges. The results of the 1996 validation work showed that 7 percent of DRG 475 discharges
sampled should have been coded to a lower-weighted DRG. The HCFA estimated that the total
overpayment attributable to incorrect DRG 475 classifications was $67 million.

In several recent Office of Inspector General reports we highlighted problems with DRG upcoding
and recommended that HCFA systematically monitor the situation.

For this inspection, we analyzed the Medicare Provider Analysis and Review file to identify
hospitals with atypically high billings for DRG 475 in fiscal years 1993 to 1996.

FINDINGS

Forty-six hospitals had atypically high Medicare billings for DRG 475.

A relatively small number of hospitals (46 of 3,714) had abnormally high DRG 475 discharges
compared to national figures. These 46 hospitals were identified based on two criteria: (1) a large
proportion of DRG 475 discharges to total discharges in 1996, and (2) a significant increase in the
proportion of DRG 475 discharges to total discharges between 1993 and 1996.

For the 46 hospitals, DRG 475 discharges increased from 793 in 1993 to 2,063 in 1996 -- an
almost three-fold increase (160 percent). Nationally, DRG 475 discharges increased from 81,497

                                           )))))))))))
                                                i
in 1993 to 100,355 in 1996. An increase of only 23 percent.

The proportion of DRG 475 discharges to total discharges for the 46 hospitals increased by a
factor of almost 3 (159 percent), from 0.82 percent in 1993 to 2.12 percent in 1996. In contrast,
the national proportion increased only 16 percent from 0.73 percent in 1993 to 0.85 percent in
1996.

The questionable billing of DRG 475 could have a major financial impact.

For the 46 hospitals, the number of DRG 475 discharges exceeded national norms by 1,134 cases.
Earlier DRG validation work performed by the Office of Inspector General (OIG) found an
average per discharge difference of $10,184 between DRG 475 and the DRG that should have
been coded. Based on this amount, we estimate that potential overpayments could be as high as
$11.5 million or 31 percent of the $37.6 million paid to these hospitals for DRG 475 in 1996.

The true upcoding error rate can only be determined by undertaking a detailed claims review at
each hospital. Therefore, the potential overpayments at each hospital would vary according to
actual coding error rates.

NEXT STEPS

As noted in the background, we previously recommended that HCFA perform routine monitoring
and analysis of hospital billing and clinical data to proactively identify aberrant patterns of
upcoding. The HCFA agreed with the recommendation and outlined an extensive program to
respond to it. We offer the information in this report as insight into another possible problem
DRG for HCFA to consider when refining its plan. We recognize that only record reviews by
trained professionals will establish if incorrect coding has occurred at the 46 hospitals identified.
Meanwhile, we have referred the 46 hospitals to our Office of Investigations. We look forward to
continuing collaboration with HCFA on this matter.




                                          )))))))))))
                                               ii
                              TABLE OF CONTENTS



                                                                                                                                PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


  Atypically high DRG 475 billings at 46 hospitals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


  Potential financial impact . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


NEXT STEPS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


APPENDICES


  A: Clinical Data Abstraction Centers’ 1996 Validation Work for DRG 475 . . . . . . . . . . . . A-1


  B: Office of Inspector General’s Validation Work for DRG 475 . . . . . . . . . . . . . . . . . . . . . B-1

                                   INTRODUCTION

PURPOSE

To identify hospitals with atypically high billing patterns for patients with a respiratory system
diagnosis and ventilator support (DRG 475).

BACKGROUND

In 1983, the Congress enacted a prospective payment system under which Medicare pays a fixed,
predetermined amount for inpatient hospital stays. The payment amount is determined by taking a
hospital’s individual base payment rate and multiplying it by the weight of the diagnosis related
group (DRG) assigned to the patient stay. A DRG’s weight is determined by the intensity of
resources, on average, that are needed to treat that kind of case.

Establishing Hospital Reimbursement for DRGs

Discharges are classified into DRGs based on several factors. Generally, classification of a
medical DRG is based on the principal diagnosis, and classification of a surgical DRG is based on
the operating room procedure performed. However, other factors influencing DRG assignment
include additional diagnoses, certain procedures performed during the stay, as well as age, sex,
and discharge status of the patient. Hospitals use codes from the International Classification of
Diseases, Ninth Edition, Clinical Modification (ICD-9-CM) to report diagnosis and procedure
information.

When a patient is discharged, the physician will summarize information on a discharge face sheet.
This information may include the principal diagnosis, additional diagnoses, and procedures
performed during the stay. A coder, trained in medical classification, uses this information to
assign the most appropriate ICD-9-CM code. The hospital coder reviews the entire medical
record as part of the coding process.

A hospital receives payment for treating a Medicare patient by preparing a claim and forwarding it
to the Medicare fiscal intermediary. The intermediary processes the claim through a series of
automated screens. These screens, called the Medicare Code Editor, identify cases that need
further review before being classified into a DRG. Cases are classified by the GROUPER
software program into the appropriate DRG. This program classifies each case into a DRG
based on diagnosis, procedure code, and demographic information. Hospital reimbursement is
then calculated by multiplying the weight of each DRG by the hospital’s individual base payment
rate. Reimbursement will increase as the relative weight increases.

Diagnosis Related Group 475

Medicare reimbursed hospitals nearly $2 billion for patients with a respiratory system diagnosis
and ventilator support in 1996. The hospital stays of patients whose principal diagnosis relates to

                                           )))))))))))
                                                1
diseases and disorders of the respiratory system (Major Diagnostic Category 4), and who receive
continuous mechanical ventilation support, are coded as DRG 475. Major Diagnostic Category 4
includes DRGs such as simple pneumonia and pleurisy, chronic obstructive pulmonary disease,
and pulmonary edema and respiratory failure. Currently, there are 421 ICD-9-CM codes and 3
non-operating room procedure codes that can lead to the coding of DRG 475.

The 1996 relative weight of DRG 475 is 3.7015. It is among the top 5 percent of DRGs in terms
of relative weight. Because payments are greater for higher weighted DRGs, the mis­
classification of a DRG 475 discharge can have significant financial implications.

The Health Care Financing Administration’s DRG Validation Work

Medicare Peer Review Organizations (PROs) are required to contract out DRG validation efforts
to two Clinical Data Abstraction Centers. The PROs are groups of health care professionals
contracted by HCFA to oversee that care given to Medicare patients is reasonable, necessary, and
provided in the most appropriate setting.

The Abstraction Centers’ validation effort provides HCFA with an overall assessment of DRG
coding and identifies problematic DRGs. The 1996 validation effort consisted of a nationally
representative random sample of 20,152 claims from all Medicare inpatient hospital discharges.
There were 185 discharges for patients with a respiratory system diagnosis and ventilator support
in the sample. The results disclosed that 7 percent (13 of 185) of the sample DRG 475 discharges
were improperly coded. All 13 of the erroneously coded discharges resulted in overpayments to
hospitals. The total estimated overpayment attributable to DRG 475 discharges was $67,176,843
for 1996.

The 13 incorrectly coded discharges should have been coded to 10 less expensive DRG codes.
The hospitals should have coded 3 of the discharges as DRG 127 (Heart Failure and Shock);
another 2 should have been coded to DRG 121 (Circulatory Disorders with Acute Myocardial
Infarction & Major Complications, Discharged Alive). A complete listing of the appropriate DRG
codes can be found in Appendix A.

The Office of Inspector General’s DRG Validation Work

In an inspection entitled, Using Software to Detect Upcoding of Hospitals Bills (OEI-01-97-
00010, August 1998), the Office of Inspector General (OIG) performed DRG validation work on
a sample of 2,622 Medicare inpatient hospital discharges. Twenty-six of the 2,622 discharges
were for patients with a respiratory system diagnosis and ventilator support. The results of this
validation showed that 19 percent of the sample DRG 475 discharges (5 of 26) were improperly
coded. All five erroneously coded discharges resulted in overpayments to the hospitals.

The erroneously coded DRG 475 discharges should have been coded to four less expensive
DRGs. Two of the erroneously coded discharges should have been coded to DRG 127. A
complete listing of the appropriate DRG codes can be found in Appendix B.

Other Office of Inspector General DRG Work
                                         )))))))))))
                                              2
In a follow-up to the OIG report just mentioned, we sent an advisory report to HCFA entitled,
Monitoring the Accuracy of Hospital Coding (OEI-01-98-00420, September 30, 1998). We
pointed out that the DRG system was vulnerable to upcoding, particularly within certain DRGs.
We recommended that HCFA perform routine monitoring and analysis of hospital billing data and
clinical data to identify aberrant patterns of upcoding. In another recent report entitled, Medicare
Payments for Septicemia (OEI-03-98-00370, October 1998), we reviewed hospital coding
patterns over time for septicemia. We found 120 hospitals with atypically high Medicare billings
for septicemia. We repeated our recommendation that HCFA institute a system to identify
hospitals with atypically high billings for DRGs. We offered our methodology as an example of a
technique which could be used to focus HCFA’s limited resources in identifying potential cases of
DRG upcoding. This current report provides another example of how this technique could be
used.

METHODOLOGY

We extracted data from the Medicare Provider Analysis and Review (MedPAR) file for fiscal
years 1993 to 1996. The MedPAR file contains Medicare DRG discharge information for all
hospitals. For each hospital that had at least one DRG 475 discharge (3,714 hospitals), we
determined the number of DRG 475 discharges and the total overall number of discharges by
year.

We calculated the proportion of DRG 475 discharges to total discharges for each hospital in
1996. We found that DRG 475 discharges accounted for more than 1.5 percent of all discharges
in just 12 percent of hospitals. We then determined the proportion of DRG 475 discharges to
total discharges for 1993 and compared it to the proportion calculated for 1996. Between 1993
and 1996, the proportion had increased by more than 100 percent in 14 percent of the hospitals.

To identify hospitals with atypically high DRG 475 billing patterns, we selected hospitals with the
following criteria: (1) DRG 475 discharges accounted for more than 1.5 percent of all discharges
in 1996, and (2) the proportion of DRG 475 discharges to total discharges had increased by more
than 100 percent between 1993 and 1996. We excluded hospitals with less than 20 DRG 475
discharges in 1996 and hospitals currently under investigation by the OIG.

We contacted a number of Peer Review Organizations in different States to determine if the
hospitals we identified specialized in ventilator dependent patients during the period of our
review. We have received responses for 83 percent (38 of 46) of the hospitals identified. Almost
all of the hospitals (37 of 38) did not specialize in ventilator dependent patients during our review
period. One hospital did have a pulmonary support unit.

For the hospitals with atypical billing patterns, we determined a potential overpayment amount for
1996. We first calculated a per discharge overpayment amount. We based this calculation on the
recent DRG validation work done by the OIG. We determined the difference between the DRG
475 payment that was inappropriately billed and the payment for the DRG code that should have
been billed. We compared the number of DRG 475 discharges for each of the hospitals identified
against the national average of DRG 475 discharges for all hospitals. We then multiplied this

                                          )))))))))))
                                               3
difference by the estimated per discharge overpayment to determine the potential financial impact
to the Medicare program.

This inspection was conducted in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency.




                                         )))))))))))
                                              4
                                          FINDINGS

FORTY-SIX HOSPITALS HAD ATYPICALLY HIGH MEDICARE BILLINGS
FOR DRG 475.

A relatively small number of hospitals had abnormally high discharges for patients with a
respiratory system diagnosis and ventilator support compared to national figures. For 46
hospitals, total DRG 475 discharges increased by a factor of almost 3, from 793 in 1993 to 2,063
in 1996. This represents an average increase of 38 percent a year. Nationally, DRG 475
discharges increased from 81,497 in 1993 to 100,355 in 1996, with an average increase of 7
percent a year.

Some of the 46 hospitals exhibited unusually high increases in DRG 475 discharges from 1993 to
1996. For instance, one hospital’s DRG 475 discharges increased from 15 (out of 1,905 total
discharges) in 1993 to 51 (out of 1,837 total discharges) in 1996 -- a more than three-fold
increase. Another hospital’s DRG 475 discharges increased from 4 (out of 1,199 total
discharges) in 1994 to 48 (out of 1,287 total discharges) in 1995 -- a twelve-fold increase.

These 46 hospitals also had atypically high proportions of DRG 475 discharges to total discharges
as compared to the national average. As illustrated in the chart below, for the 46 hospitals, the
proportion of DRG 475 discharges to total discharges increased from 0.82 percent in 1993 to
2.12 percent in 1996. This represents an almost three-fold increase, with an average increase of
38 percent a year. For all hospitals, this same proportion increased from 0.73 percent in 1993 to
0.85 percent in 1996, with an average increase of 5 percent a year.

                       Proportion of DRG 475 Discharges to Total Discharges
                                          1993 to 1996


                                  3.00%
                                  2.75%
                                  2.50%
                                  2.25%
                                  2.00%                                     DRG 475 to Total
                                  1.75%                                     (46 Hospitals)
                                  1.50%                                     DRG 475 to Total
                                                                            (All Hospitals)
                                  1.25%
                                  1.00%
                                  0.75%
                                  0.50%
                                  0.25%
                                  0.00%
                                            1993    1994    1995    1996

                         DRG 475 to Total   0.82%   1.18%   1.49%   2.12%
                         (46 Hospitals)
                         DRG 475 to Total   0.73%   0.78%   0.81%   0.85%
                         (All Hospitals)




                                               )))))))))))
                                                    5
Between 1993 and 1996, the proportion of DRG 475 discharges to total discharges for the 46
hospitals increased between 2 and 33 times. For nearly one-quarter of the hospitals (11 of 46),
the proportion increased by a factor of four or more.

The 46 hospitals were located in 21 States. Of the 46 hospitals, 25 were concentrated in 4 States.
Eleven hospitals were in California, six in Florida, and Georgia and Texas both had four. The
remaining States contained one or two hospitals.

THE QUESTIONABLE BILLING OF DRG 475 COULD HAVE A MAJOR FINANCIAL
IMPACT.

For the 46 hospitals, the number of discharges for patients with a respiratory system diagnosis and
ventilator support exceeded national norms by 1,134 cases. Using previous OIG validation
efforts, we calculated a difference of $10,184 between the DRG 475 payment that was
inappropriately billed and the payment for the DRG code that should have been billed. Therefore,
we estimate that potential overpayments could be as high as $11.5 million in 1996. This $11.5
million overpayment represents almost one-third of the $37.6 million paid to these hospitals for
DRG 475 in 1996.

The true upcoding error rate can only be determined by undertaking a detailed claims review at
each hospital. Therefore, the potential overpayments at each hospital would vary depending on
actual coding error rates.




                                         )))))))))))
                                              6
                                 NEXT STEPS

As noted in the background, we previously recommended that HCFA perform routine monitoring
and analysis of hospital billing and clinical data to proactively identify aberrant patterns of
upcoding. The HCFA agreed with the recommendation and outlined an extensive program to
respond to it. We offer the information in this report as insight into another possible problem
DRG for HCFA to consider when refining its plan. We recognize that only record reviews by
trained professionals will establish if incorrect coding has occurred at the 46 hospitals identified.
Meanwhile, we have referred the 46 hospitals to our Office of Investigations. We look forward to
continuing collaboration with HCFA on this matter.




                                          )))))))))))
                                               7
                                        APPENDIX A


                      CLINICAL DATA ABSTRACTION CENTERS’ 1996
                            VALIDATION WORK FOR DRG 475

This table shows the results of the 1996 Clinical Data Abstraction Centers’ validation effort for
DRG 475 (Respiratory System Diagnosis with Ventilator Support). Column one contains the
appropriate DRGs for the 13 upcoded DRG 475 discharges identified in the validation work.

                                                                                      Number of            Percent of
    Hospital   DRG                                                                    Times DRG           Total Times
     DRG       Weight                           Description 1                        was Upcoded 2        DRGs were
                                                                                                            Upcoded

      127       1.0302    Heart Failure & Shock                                               3                23%

      121       1.6459    Circulatory Disorders with Acute Myocardial Infarction              2                15%
                          & Major Complications, Discharged Alive

      014       1.2065    Specific Cerebrovascular Disorders Except Transient                 1                    8%
                          Ischemic Attack

      022       0.8127    Hypertensive Encephalopathy                                         1                    8%

      076       2.5601    Other Respiratory System Operating Room Procedures                  1                    8%
                          with Complications and Comorbidities

      123       1.4370    Circulatory Disorders with Acute Myocardial Infarction,             1                    8%
                          Expired with Complications and Comorbidities

      130       0.9384    Peripheral Vascular Disorders                                       1                    8%

      144       1.0689    Other Circulatory System Diagnoses with Complications               1                    8%
                          and Comorbidities

      174       0.9880    Gastrointestinal Hemorrhage with Complications and                  1                    8%
                          Comorbidities

      202       1.3177    Cirrhosis & Alcoholic Hepatitis                                     1                    8%

                                                                                    Total   13               102% 3

1
    These definitions were taken from the Diagnosis Related Groups Definitions Manual, version 15.0, as compiled
     by the company, 3M Health Information Systems.
2
    This column represents the 13 upcoded discharges from the Abstraction Centers’ validation work.
3
    The total for this column does not equal 100 percent due to rounding.




                                                  )))))))))))
                                                      A-1
                                              APPENDIX B


                              OFFICE OF INSPECTOR GENERAL’S
                               VALIDATION WORK FOR DRG 475

This table shows the results of the Office of Inspector General’s (OIG) validation work for DRG
475 (Respiratory System Diagnosis with Ventilator Support). Column one contains the
appropriate DRGs for the five upcoded DRG 475 discharges found in the validation work.

                                                                                    Number of          Percent of Total
    Hospital   DRG                                                                  times DRG           Times DRGs
     DRG       Weight                         Description 1                        was Upcoded 2        were upcoded

      127      1.0302     Heart Failure & Shock                                            2                 40%

      014      1.2065     Specific Cerebrovascular Disorders Except Transient              1                 20%
                          Ischemic Attack

      088      1.0018     Chronic Obstructive Pulmonary Disease                            1                 20%

      295      0.7634     Diabetes Age 0-35                                                1                 20%

                                                                                  Total    5                100%

1
    These descriptions were taken from the Diagnosis Related Groups Definitions Manual, version 15.0, as compiled
     by the company, 3M Health Information Systems.
2
    This column represents the five upcoded discharges from the OIG’s validation work.




                                                  )))))))))))
                                                      B-1
